CERTIFICATE OF COMPLIANCE
No. 19-508
AMG CAPITAL MANAGEMENT, LLC, et al.,
Petitioners,
v.
FEDERAL TRADE COMMISSION
Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Remedies, Restitution, Antitrust, and Intellectual Property Law Scholars in
Support of Respondent contains 7048 words, excluding the parts of the brief that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 6, 2020

PHILLIP R. MALONE

